Nos. 20-543 & 20-544

In the Supreme Court of the United States
JANET L. YELLEN,
SECRETARY OF THE TREASURY, PETITIONER
v.
CONFEDERATED TRIBES
OF THE CHEHALIS RESERVATION, ET AL., RESPONDENTS
ALASKA NATIVE VILLAGE CORPORATION ASSOCIATION, INC., ET AL., PETITIONERS
v.
CONFEDERATED TRIBES
OF THE CHEHALIS RESERVATION, ET AL., RESPONDENTS
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

MOTION REGARDING ORAL ARGUMENT

Jeffrey S. Rasmussen (Counsel of Record)
Frances C. Bassett
Jeremy J. Patterson
Patterson Earnhart Real Bird & Wilson
1900 Plaza Drive
Louisville, CO 80027
Phone: (303) 926-5292
jrasmussen@nativelawgroup.com
fbassett@nativelawgroup.com
rwilson@nativelawgroup.com

The Ute Indian Tribe of the Uintah and Ouray Reservation submits this
motion seeking an order dividing oral argument at 15 minutes for each of the two
counsel of record who submitted response briefs in this case; or such other order
as the Court determines is appropriate. This motion is based upon the Court file
and Supreme Court Rule 28(4).
The Ute Indian Tribe requested the position of the Chehalis Tribe, which
deferred taking a position until after this motion is filed.
Discussion of Facts and Law
The Ute Indian Tribe of the Uintah and Ouray Reservation (Ute Indian Tribe)
filed one of the three cases in the District Court which were consolidated, and
which are now before this Court on writs of certiorari.
The merits briefs in this case focus on two related issues. The first issue is
whether every Alaska Native Corporation (ANC) qualifies as a “tribal government”
as that term is defined in Title V of the Coronavirus Aid, Relief, and Economic
Security Act (“CARES Act”), Pub. L. No. 116-136, 134 Stat. 281 (2020).
The second issue is whether every ANC qualifies as an “Indian Tribe” based
application of rules of statutory interpretation to the definition of “Indian Tribe”
contained in the Indian Self-Determination and Education Assistance Act of 1975
(ISDEAA), 25 U.S.C. § 5304(e).

In both this Court and the lower courts, the Ute Indian Tribe has provided
briefing on both of these issues; and it has discussed that its position is that this
case should have been, and now should be, decided on the first issue presented—
ANCs are not tribal governments under the CARES Act. Ute Brief §I. The Ute Indian
Tribe has also consistently discussed that even if the case were decided on the
ISDEAA statutory interpretation issues, the result would be the same because ANCs
are not “Indian Tribes” under the plain language of the ISDEAA. Ute Brief §§ II, III.
In contrast, the Confederated Tribes of the Chehalis Reservation has largely
agreed with the ANCs and the Secretary that this case should be turned into a
question of statutory interpretation of the ISDEAA.

E.g., Chehalis Brief at i

(Question Presented). In its merits brief to this Court, the Chehalis Tribe does not
provide any briefing on whether ANCs are tribal governments as that term is used
in the CARES Act. Id. at §§II, III. In fact, the Chehalis Tribe frames the question
presented to attempt to exclude the question of whether ANCs are tribal
governments under Title V of the CARES Act.
Given this, the Ute Indian Tribe’s position is that it should provide oral
argument in this case. It is the only Respondent that has briefed both of the issues
presented. The Ute Indian Tribe does not believe that the Chehalis Tribe can or
would effectively present argument on the issue briefed by the Ute Indian Tribe,

because, inter alia, the Chehalis Tribe wants to have the case decided on the sole
issue that they chose to brief.
Prior to filing this motion, the Ute Indian Tribe sought the agreement of
attorneys for the Chehalis Tribe. The Ute Indian Tribe understands that splitting
oral argument time poses particular difficulties in remote hearings, but the Ute
Indian Tribe wanted to give the Chehalis Tribe the opportunity to present the
argument on their preferred issue, while also giving the Ute Indian Tribe the
opportunity to present argument on the issue that Chehalis chose not to brief.
Those attorneys responded that they will take a position only after this
motion is filed. Nevertheless, the Ute Indian Tribe continues to believe that
argument time should be split, so that both Respondents can provide argument.
Respectfully submitted March 31, 2021

/Jeffrey S. Rasmussen/
Jeffrey S. Rasmussen (Counsel of Record)
Frances C. Bassett
Jeremy J. Patterson
Patterson Earnhart Real Bird & Wilson
1900 Plaza Drive
Louisville, CO 80027
Phone: (303) 926-5292
jrasmussen@nativelawgroup.com
fbassett@nativelawgroup.com
rwilson@nativelawgroup.com

